Semiannual Report to Congress - October 1, 2002 through March 31, 2003
Semiannual Report to Congress
October 1, 2002 through March 31, 2003
Inspector General Letter
Agency Profile
Office of Inspector General
Audit Program
Investigations Program
Legislation, Regulations, and Policy
Liaison Activities
Information Required by the Act
Audit Reports by Subject Matter
Reports with Questioned Costs
Reports with Recommendations that Funds be put to Better Use
INSPECTOR GENERAL
NATIONAL LABOR RELATIONS BOARD
WASHINGTON, DC 20570
I hereby submit this Semiannual Report: October 1, 2002 - March 31, 2003, which summarizes the major activities and accomplishments of the Office of Inspector General (OIG) of the National Labor Relations Board (Agency).  The submission of this report is in accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate committees or subcommittees of the Congress within 30 days of its receipt.
OIG issued two audit reports with questioned costs of $267,408, three inspection reports, and two issue alerts.  In the investigations program, OIG processed 223 contacts, initiated 15 cases, and closed 20 cases.  The investigations resulted in 41 personnel actions, including suspensions, resignations, written reprimands, and $12,268 in investigative recoveries.  We reviewed four pieces of legislation and one regulation.  Details on these accomplishments can be found in the body of this report.
One role of the OIG is to effectuate change for the better. This is primarily done through prevention (audits) and detection (investigations).  We work closely with management to implement necessary actions, sometimes while the audit or investigation is ongoing.  For example, during this period, management improved security by implementing a new numbering system for identification badges and replacing badges with expired dates. Management has also taken appropriate action on multiple cases of travel card abuse, and the Agency now has significantly fewer questionable transactions.
With the wide range of topics and number of recommendations, the OIG and management occasionally disagree.  As discussed in this report, management continues to issue no loss of pay suspensions and intends to continue excusing compliance cases based on incomplete information.  The length of time to implement action is also increasing; four audit reports are identified in the audit follow-up section as taking more than a year from the date of management agreement for action to be completed. We intend to work with the audit follow-up officials more closely over the next five months to resolve disagreements and obtain more timely action.
Jane E. Altenhofen
April 30, 2003
AGENCY PROFILE
The National Labor Relations Board (NLRB or Agency) is an independent Federal agency established in 1935 to administer the National Labor Relations Act (NLRA).  The NLRA is the principal labor relations law of the United States, and its provisions generally apply to private sector enterprises engaged in, or to activities affecting, interstate commerce.  NLRB jurisdiction includes the U.S. Postal Service (other government entities, railroads, and airlines are not within NLRB's jurisdiction).
The NLRB seeks to serve the public interest by reducing interruptions in commerce caused by industrial strife.  It does this by providing orderly processes for protecting and implementing the respective rights of employees, employers, and unions in their relations with one another.  The NLRB has two principal functions: (1) to determine and implement, through secret ballot elections, the free democratic choice by employees as to whether they wish to be represented by a union in dealing with
their employers and, if so, by which union; and (2) to prevent and remedy unlawful acts, called unfair fair labor practices, by either employers, unions, or both.
NLRB authority is divided by law and delegation.  The five-member Board primarily acts as a quasi-judicial body in deciding cases on formal records.  The General Counsel investigates and prosecutes unfair labor practices before administrative law judges, whose decisions may be appealed to the Board; and, on behalf of the Board, conducts secret ballot elections to determine whether employees wish to be represented by a union.
The Board consists of the Chairman and four members who are appointed by the President with the advice and consent of the Senate.  Board Members serve staggered terms of 5 years each.  The General Counsel is also appointed by the President with the advice and consent of the Senate and serves a 4-year term.
For the first time since August 2000, NLRB has a full complement of five Members.  The Board Members were all appointed by President Bush.  Member Liebman was sworn in on December 21, 2002, and the other four Members on December 17, 2002.  Their terms are as follows:
Chairman Battista for a term expiring December 16, 2007;
Member Liebman for a term expiring August 27, 2006;
Member Schaumber for a term expiring August 27, 2005;
Member Walsh for a term expiring December 16, 2004; and
Member Acosta for a term expiring August 27, 2003.
NLRB received an appropriation of $238,982,000 for FY 2003, less an across-the-board rescission of .65 percent, leaving a net spending ceiling of $237,428,617 to fund an expected ceiling of 1,952 full-time equivalents.  NLRB Headquarters is at 1099 14th Street, NW, Washington, DC.
In addition to the Headquarters building, employees are located in 51 field offices throughout the country.  Three satellite offices for the Administrative Law Judges are located in Atlanta, San Francisco, and New York.  Since October 2, 2000, field offices included 32 Regional Offices, 16 Resident Offices, and 3 Subregional Offices.
Additional information about NLRB can be found on the Web site www.NLRB.gov.
OFFICE OF INSPECTOR GENERAL
The NLRB established the Office of Inspector General (OIG) pursuant to the 1988 amendments to the Inspector General Act of 1978 (IG Act).
Resources
The FY 2003 OIG budget is $865,800 for operations, of which $66,000 is for contract services.  In addition to the Inspector General, the OIG consists of a Counsel/Assistant Inspector General for Investigations, Assistant Inspector General for Audits, a criminal investigator, two auditors, and a staff assistant.
Robert J. Brennan entered on duty as a staff auditor on November 18, 2002.
In March 2003, a third auditor position was approved due to a significant increase in workload from two statutory requirements.  Public Law (P.L.) 107-289, the Accountability of Tax Dollars Act of 2002, requires the OIG to conduct annual audits of the Agency's financial statements.  The Federal Information Security Management Act of 2002, title 3 of P.L. 107-347, extended a requirement that the OIG conduct annual reviews of the Agency's information security program.
AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate audits relating to program operations of the Agency.  OIG issued two audit reports with questioned costs of $267,408, three inspection reports, and two issue alerts.
Reports Issued
We issued Audit Report OIG-AMR-38-03-01, Audit of Agency Leased Vehicles, on January 24, 2003.  This review was conducted to ascertain whether the fleet of vehicles leased by the Agency is the appropriate size and whether controls over leased vehicles provide reasonable assurances that vehicles are properly used.
All but 1 of the Agency's 60 vehicles were procured from the General Services Administration (GSA), were the proper size, and were retained until GSA indicated a replacement was necessary. The one exception, the Headquarters vehicle, was procured without the proper waiver from GSA to use an outside source, was a large size sedan without adequate justification, and was leased for only 2 years instead of the 3-year minimum retention period.
Over half of the vehicles in our sample did not meet the minimum vehicle use guidelines in either FY 2001 or FY 2002, and two-thirds of the fleet did not meet the guidelines in FY 2002. These vehicles cost over $86,000 a year. By eliminating under-utilized vehicles, the Agency could put approximately $260,000 to better use over 3 years.
The Agency also overpaid mileage reimbursements by $7,408 in four Regional Offices.  The overpayments occurred because employees were reimbursed at an improper higher rate.
Management generally agreed with the findings and recommendations made in the report.  The Division of Operations-Management believes the actual funds saved will be substantially less when offset by valid travel costs, which are a better use of funds.
We issued Audit Report OIG-AMR-35-03-02, Review of Compliance Actions, on March 20, 2003.  This review evaluated information utilized to manage compliance with Board orders and evaluate compliance activity in Regional Offices.
Generally, the compliance reports contained accurate data and the four Regions reviewed pursued achieving compliance with Board orders in accordance with stated Agency policies.
In FYs 2001 and 2002, just over 70 percent of the cases in the four Regions reviewed exceeded time frames.  Calculations consistent with those used for Regional Director evaluations showed over 90 percent of the overage cases were excused.  Further, the Agency's overage situation was not fully disclosed in performance reports.
NLRB's monthly compliance reports did not provide sufficient information to allow for an informed determination as to why actions were not completed within the Agency's established timeframes and why cases should be excused.  In approximately half of the cases reviewed, Operations-Management did not have adequate information to evaluate whether an excuse was warranted.  Use of new reports in the case activity system in    FY 2002 should allow more timely review of and feedback on compliance reports, but the data could still be incomplete.
Operations-Management met with staff to emphasize the importance of adhering to the Compliance Manual and added language to the performance report that all overage compliance cases are not included in the statistics.
Management did not agree to not excuse cases when data required by the Compliance Manual is missing.  Data corrections can and should be made in a timely manner.  We believe that our recommendation to not excuse cases without complete information is valid and, if adopted, will increase the integrity of data used to manage cases.
We issued Inspection Report OIG-INS-21-03-01, Consistency in Serving Suspensions, on October 7, 2002.  We initiated this inspection to ascertain the manner in which suspensions were served and identify pattern differences.
A personnel action must be prepared for each suspension and the return to duty. We found personnel actions were missing for some suspensions or the return to duty. Personnel actions, when processed, were generally initiated in a timely fashion; however, due to the length of time needed for processing, most personnel actions were not approved until after the suspension was being served.
By definition, a suspension is a temporary status without pay.  We found that some suspensions did not involve any loss of pay.  Further, the Division of Administration was scheduling suspensions to decrease the loss of pay significantly more often than the Division of Operations-Management.
As suggested in our report, management agreed to ensure that the necessary records are in the adverse action files and provide additional training to timekeepers and managers on how to process and record suspensions.
Management did not agree to discontinue issuing "paper" suspensions that have no loss of pay.  During this reporting period, management issued four such "suspensions" for employee misconduct to be served on nonwork days.  In response to OIG concerns, management includes a footnote in the Notice of Final Decision that the suspension is not from pay and duty.
Management agrees that these actions do not meet the definition of a "suspension," but view this as a creative way to address disciplinary issues.
We issued Inspection Report OIG-INS-26-03-02, Attendance at Agency Training, on March 3, 2003.  We initiated this inspection to obtain statistics on the number of employees who enrolled and attended Agency-sponsored training.
Overall, training classes were well attended, but required documentation was not maintained.  The Information Technology Branch (ITB) did not maintain signed or initialed rosters of attendees for all of the training sessions.  The rosters for 5 classes showed that 75 percent of enrollees attended the training sessions.  The Office of Employee Development (OED) maintained records of enrollment and attendance rosters for retirement and customer service training, but not for legal writing seminars.  Eighteen retirement and customer service training sessions were attended by over 90 percent of enrollees.
OED agreed with our suggestion to maintain rosters and documentation of Agency training in accordance with the General Records Schedule.  ITB is reviewing procedures for preparing and retaining training documentation for compliance with Federal regulations.
We issued Inspection Report OIG-INS-25-03-03, Review of Agency Procedures for Control of Identification Badges, on March 12, 2003.  We initiated this inspection to determine whether the Agency has implemented adequate controls over identification badges (IDs) issued to employees and contractors.
The Agency has no written policy concerning the control and issuance of IDs.  The Agency has not mandated the display of IDs and, therefore, does not meet the recommended minimum standard for security in Federal properties.  ID numbers for many employees are duplicates.
As suggested, management changed the system of numbering IDs to use unique identifiers, ceased issuing IDs to retired employees, and instructed guards to confiscate expired and retiree IDs.
Management did not agree to require that Agency IDs be displayed at all times.
We issued Issue Alert OIG-IA-03-01, Top 10 Management Challenges, on January 31, 2003.  Consistent with the goal of improving Agency programs and operations, the OIG developed a list of what it considers to be the most serious management challenges facing the Agency.  These are:  1. Maintain a full-strength Board; 2. Issue written policies on information security; 3. Prepare financial statements; 4. Issue the Annual Report with accurate data in a timely manner; 5. Provide guidance on human resource issues; 6. Implement e-government initiatives; 7. Process compliance actions in a timely manner; 8. Improve Results Act report quality; 9. Update computer passwords; and 10. Properly control and disseminate sensitive documents.
We issued Issue Alert OIG-IA-03-02, Draft FY 2004 Annual Program Performance Plan and FY 2002 Annual Performance Report, on March 4, 2002.  We commented that the Agency continues to have multiple performance measures with a median as a goal.  This practice hides extreme times that it take to accomplish some action and therefore is not the best measure.  We also found that several performance measures were written to exclude blocks of time or types of cases from measurement.
Management strongly defended using medians to measure performance as follows.  In the final analysis, the goals clearly reflect to the reader that they are determined by medians.  This system has served the public extraordinarily well for over 40 years.  And, most importantly, it also serves as a managerial information system that is administered and monitored by managers.
Audit Follow-up
Agreed upon actions were not completed within 1 year on four audit reports, one of which is now closed.
Review of Information Systems Security, OIG-AMR-30-00-03, was issued on September 29, 2000.  We reached agreement with management on actions needed to implement the 15 recommendations made in the report on December 27, 2000.  Action is reportedly completed on 13 of the 15 recommendations.
Management is working to implement the remaining recommendations.  Open recommendations include instituting an individual development-training program and installing password management software.
Audit of Case Activity Tracking System Security, OIG-AMR-33-01-02, was issued on August 1, 2001.  We reached agreement with management on actions needed to implement our six recommendations on October 1, 2001.  Action is reportedly completed on five of six recommendations.
Management is working to implement the remaining recommendation by December 2003.  The recommendation is to adopt automatic time-out features and password protected screen savers.
Audit of Property Controls Over ADP Items, OIG-AMR-32-01-03, was issued on September 27, 2001.  We reached agreement with management on actions needed to implement the two recommendations made in the report on December 13, 2001.  Action is reportedly completed on one of the two recommendations.
Management is working to implement the remaining recommendation by December 31, 2003.  The open recommendation consists of implementing a new help desk system with asset management software.
Audit of Monitoring the Computer Maintenance Contract, OIG-AMR-34-02-01, was issued on March 21, 2002.  We reached agreement with management on actions needed to implement four recommendations made in the report on March 21, 2002.  Actions necessary to close out this audit were completed by a contract modification executed on April 4, 2003.
INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate investigations relating to the programs and operations of the Agency. OIG processed 223 contacts, initiated 15 cases, and closed 20 cases. The investigations resulted in 25 suspensions, 5 losses of leave, 5 agreements for separations, 6 written reprimands, 9 oral counselings, and $12,268 in investigative recoveries.  Two cases were referred for prosecution.
Case Workload   Contacts Processed
Open (10/01/2002)
18
Received
223
Initiated
15
Initiated Investigation
3
Closed
20
Open Case -- Referred to Agency
0
Open (3/31/2003)
13
Non-Investigative Disposition
220
Government Travel Card Abuse. As previously reported, OIG initiated a comprehensive review of travel card purchases by NLRB personnel.  As a result of that review, we initiated 19 investigative cases involving 57 subjects.  Of those subjects, 45 had substantiated travel card abuse.  The substantiated travel card abuse included purchases at department, home furnishing, and specialty stores; cash advances at automated teller machines; personal travel expenses, and cash advances on casino gaming floors.
Management action for the 45 subjects consisted of:  25 suspensions (2 proposed); 2 agreements to donate annual leave in lieu of a suspension;  3 retirements; 6 written reprimands; and 9 oral counselings.  The donated annual leave totaled 64 hours valued at $1,623.  (OIG-I-290 to 294, 296 to 304, 306, 312, 314 to 316)
In response to an OIG audit report issued in September 2002, management is considering improvements to internal controls over travel cards.
Driving with a Suspended License. OIG initiated an investigation following the Audit of Agency Leased Vehicles.  During that review, evidence was discovered that supported an allegation that the subject drove the Government owned vehicle (GOV) assigned to a Region without a valid driver's license.  The follow-on investigation substantiated the allegation.
In lieu of an actual suspension from duty, the subject agreed to 3 days of leave without pay and a 2-day suspension with no loss of pay.       (OIG-I-318)
Driving with a Suspended License and Time and Attendance.  As previously reported, OIG received an allegation that an employee was not attending meetings that she was granted official time to participate.  During the course of the investigation, new allegations involving the subject were received.  These allegations included that the subject drove a GOV without a valid motor vehicle operator's license; that while driving the GOV, she was involved in a vehicle accident and left the scene of the accident; and that, on a particular day, she left work in the middle of the day and did not return without requesting leave authorization.
The investigation substantiated that the subject failed to attend a meeting while being provided official time and was therefore absent without leave, that she violated Federal regulations by driving a GOV without a valid driver's license, and that she was absent without leave on other occasions.  Based on these findings, we recommended that management take appropriate administrative action.
During this reporting period, following a removal action, the subject agreed to submit a resignation and to withdraw several complaints against the Agency.  In return, the Agency agreed to expunge the removal action from the subject's personnel file, to convert a prior suspension to leave without pay, and to make a lump sum payment to the subject.  (OIG-I-283)
Misuse of Government Vehicle. OIG conducted an investigation of a questionable pattern of GOV usage by a Regional employee.  The questionable pattern of GOV usage was discovered during the Audit of Agency Leased Vehicles.  The investigation substantiated that the subject used the GOVs for non-official purpose in violation of 31 U.S.C. § 1344.
The subject initially resigned prior to the initiation of disciplinary action and was then allowed to rescind the resignation and replace it with an early-out retirement.  (OIG-I-319)
Sexually Explicit Material.  OIG initiated an investigative review to determine if the personnel at Headquarters were misusing the Agency's Internet access to view sexually explicit material.  This review was conducted using the November 2002 Internet firewall logs that are maintained by the Internet server.  As a result of this review, we initiated investigations involving five subjects.
Two of the investigations have been completed and resulted in administrative action through the Agency's alternative disciplinary process.  One subject agreed to retire and donate 120 hours of annual leave to the Agency's leave donor program and another agreed to donate 56 hours of annual leave to the leave donor program and to seek counseling.  The combined value of the donated leave was $10,465.
One of the five subjects was referred to the local U.S. Attorney's Office, which declined prosecution.  Management is considering appropriate administrative action for a third subject.  The remaining two subjects are still under investigation.
Transit Subsidy Abuse.  OIG conducted an investigation review of the Agency Transit subsidy program by comparing parking permit records to a list of the Agency's transit pass program participants.  As a result of this review, one investigation substantiated an allegation that the subject was participating in the transit subsidy program while he was named on a worksite-parking permit.  Another investigation substantiated an allegation that the subject was participating in the transit subsidy program without using public transportation on a regular or reoccurring basis.
One subject made restitution to the Agency in the amount of $180.  Management requested restitution in the amount of $315 from the other subject.
False Statements and Destruction of Government Records.  OIG conducted an investigation pursuant to an Interagency Agreement with another agency that does not have an inspector general.  The complaint alleged, between February and May 2002 and again in November 2002, the subject coerced or attempted to coerce one or more subordinates to close several cases in a case management system prior to the completion of the cases.  During the investigation, evidence was discovered that suggested that the subject might have procured the alteration of an audiotape record of a hearing.
The investigation substantiated that the subject violated 18 U.S.C. § 1001 between February and May 2002 by directing a subordinate to make false entries in the case management system.  The investigation did not substantiate a finding that the subject directed a subordinate to make false entries in November 2002.  The investigation also substantiated that the subject violated 18 U.S.C. § 2071 by wrongfully mutilating a Government record.
The local U.S. Attorney's Office declined prosecution.  We recommended that the agency take appropriate administrative action against the employee.  (OIG-I-320(O))
Prohibited Political Activity and Misuse of Official Time.  OIG received a complaint alleging that the subject was violating the Hatch Act by acting as a treasurer for a partisan election campaign and by engaging in partisan political activity while on official duty and in the Agency's office space.  The complaint also alleged that the subject used his Government e-mail address and telephone number for point of contact information for social and nonpartisan political causes.  The portion of the complaint involving the Hatch Act was forwarded to the U.S. Office of Special Counsel, the office with exclusive jurisdiction for Hatch Act investigations.
The OIG investigated and substantiated the allegation that the subject used his Government e-mail address and telephone number for a social cause in violation of Government regulations and Agency policy.  Management is currently in the process of determining appropriate administrative action.  (OIG-I-317)
Hotline
Employees and members of the public with information on fraud, waste, and abuse are encouraged to contact OIG.  A log of calls to a nationwide toll free number or the office numbers and a log of mail and facsimile messages are maintained.  All information received, regardless of the method used, is referred to as HOTLINE contacts.
The information received over the hotline is the basis for the initial review for potential investigations.  The information is analyzed to determine if further inquiry is warranted. Most HOTLINE contacts are calls from members of the public seeking help on an employment related problem or issues outside OIG and/or Agency jurisdiction.
As appropriate, OIG refers these callers to the NLRB office; local, state, or Federal agency; or private resource to provide assistance.
During this reporting period, OIG received 223 hotline contacts, of which 55 were telephone calls and 168 were in writing.  Three contacts resulted in OIG investigative cases.
LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations relating to programs and operations of the Agency and is to make recommendations concerning the impact of such legislation or regulations. Similarly, we review Agency and OIG policy. We reviewed four pieces of legislation, one regulation, and two policy documents.
Legislation
We reviewed the following legislation and provided input when appropriate.
P.L. 107-289, the Accountability of Tax Dollars Act of 2002.  This Act extends to the National Labor Relations Board a requirement to prepare and submit to the Congress and the Director of the Office of Management and Budget annual audited financial statements.
P.L. 107-347, the E-Government Act.  This Act extended the requirement for yearly reviews of the Agency's information security program for an indefinite period of time.  This review consists of testing the effectiveness of the information security policies, procedures, and practices of a representative subset of the Agency's information system.  Based on the test results, an assessment is made of the Agency's compliance with statutory and related information security policies, procedures, standards, and guidelines.
P.L. 107-204, the Sarbanes-Oxley Act of 2002.  Among its many provisions, this Act created the Public Company Accounting Oversight Board.
S. 22, the Justice Enhancement and Domestic Security Act of 2003.  This legislation incorporated the provision of several other bills to include the Identity Theft Victims Assistance Act of 2003, the Identity Theft Prevention Act of 2003, and the Social Security Number Misuse Prevention Act of 2003.
Regulation
We provided comments to the Audit Committee for the President's Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE) for inclusion in a response to the Office of Management and Budget for the draft Performance and Financial Management Super Circular.  Our comments generally addressed support for consolidating the guidance and coordinating deadlines.  We also expressed concern for the potential impact of the audit committee provisions on the independence of the statutory inspectors general.
Policy
We drafted and forwarded to the Agency's Privacy Act Office an updated Privacy Act Notice for the OIG investigative system of records.   The updated notice included changes to the routine uses to allow disclosure of information to the public when a legitimate public interest exists.  Disclosure can also be done for the purpose of accurate reporting to the President and Congress on the activities of the inspectors general and for peer review of our investigative activities, and to other officials to achieve an investigative result.  After review by the Agency, the notice will be forwarded for publication in the Federal Register.
We also reviewed a policy for Code of Conduct violations at the Inspector General Criminal Investigator Academy.  The policy addressed readmittance of a student following a student's dismissal for a Code of Conduct violation.  We recommended changes to ensure that a student would not be readmitted without the approval of the PCIE/ECIE Investigative Committee or while the parent OIG was considering disciplinary action.
LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or coordinate relationships between the Agency and other Federal agencies, state and local governmental agencies, and non-governmental entities. The Inspector General is to give particular regard to the activities of the Comptroller General of the United States, as head of GAO. Similarly, we encourage OIG staff members to participate in Agency programs and activities. OIG staff members are active in the inspector general community and Agency activities.
Inspector General Community
The Inspector General is a member of the ECIE, which consists primarily of the inspectors general at the designated Federal entities in the 1988 amendments to the IG Act.  She participated in activities sponsored by the PCIE, which consists primarily of the Presidentially-appointed inspectors general.  She joined the PCIE/ECIE Audit Committee in May 2001.
The Assistant Inspector General for Audits participated in the Federal Audit Executives Council, Financial Statement Audit Network, and PCIE Results Act Group.  An auditor also participated in the Results Act Group.
The Counsel participated in the Council of Counsels to Inspectors General.  He is also a member of a committee reviewing the Quality Standards for Federal Offices of Inspector General.
Agency Activities
The Counsel is an advisory member of the Government Paperwork Elimination Act Committee.  This committee was formed to ensure that the Agency meets the October 2003 deadline of providing a means for electronic transactions with the public as a substitute for paper.
Having successfully implemented an electronic "extension of time request" for the Agency's Office of Appeals, the committee continues to work on developing electronic forms for initiating a complaint in a Regional Office.
General Accounting Office
The IG Act states that each inspector general shall give particular regard to the activities of the Comptroller General of the United States with a view toward avoiding duplication and ensuring effective coordination and cooperation.
The Chairman, House Subcommittee on Government Management, Information, and Technology, requested a study on July 24, 2000.  This study determined the extent to which Federal agencies contracted with companies that have violated Federal labor, environmental, or tax laws, including the nature and extent of such violations.  NLRB was one of the agencies identified as responsible for enforcing relevant laws.
GAO issued GOVERNMENT CONTRACTING Adjudicated Violations of Certain Laws by Federal Contractors, GAO-03-163, on November 15, 2002.
Over 16,800 contractors were awarded new federal contracts in amounts of at least $100,000 during FY 2000.  Of these, GAO identified 39 contractors that were found by a Federal court or adjudicated administrative decision to have violated one or more Federal environmental, labor and employment, or antitrust laws.  GAO also identified several rule implementation issues.  The report does not include any recommendations.
INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period are required by section 5(a) of the IG Act to be included in the semiannual reports.  These are set forth below:
Section 5(a)
(1),(2),(7)
OIG did not identify any significant problems, abuses or deficiencies relating to the administration of programs.  For the purpose of this section, we used the definition of significant as set forth in the Federal Managers' Financial Integrity Act.
(3)
Corrective action has been completed on all significant recommendations that were described in the previous semiannual reports.
(4)
Two matters were referred to prosecutorial authorities.  There were no prosecutions or convictions.
(5)
No reports were made to the Chairman that information or assistance requested by the Inspector General was unreasonably refused or not provided.
(6)
A listing by subject matter is located on page 20.
(8),(9)
One audit report issued during this period had a recommendation on questioned costs.  The audit report identified funds that could be put to better use.  See Tables 1 and 2.
(10)
There are no audit reports issued before the commencement of the reporting period for which no management decision has been made by the end of the reporting period.
(11)
No significant revised management decisions were made during the reporting period.
(12)
There were no significant management decisions with which I am in disagreement.
AUDIT REPORTS BY SUBJECT MATTER
Report Title and Number
Questioned Costs
Unsupported Costs
Ineligible Costs
Funds To Be Put To Better Use
ADMINISTRATION
Audit of Agency Leased Vehicles, OIG-AMR-38-03-01
$267,408
0
$7,408
$260,000
SECURING COMPLIANCE WITH BOARD ORDERS
Review of Compliance Actions, OIG-AMR-35-03-02
0
0
0
0
Table 1 -- REPORTS WITH QUESTIONED COSTS
Dollar Value
Number of Reports
Questioned Costs Unsupported Costs
A. For which no management decision has been made by the commencement of the period
0
0
0
B. Which were issued during the reporting period
1
$7,408
0
Subtotals (A+B)
1
$7,408
0
C. For which a management decision was made during the reporting period
1
$7,408
0
(i) Dollar value of disallowed costs
1
$7,408
0
(ii) Dollar value of costs not disallowed
0
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
0
Reports for which no management decision was made within six months of issuance
0
0
0
Table 2 -- REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number of Reports
Questioned Costs
A. For which no management decision has been made by the commencement of the period
0
0
B. Which were issued during the reporting period
1
$260,000
Subtotals (A+B)
1
$260,000
C. For which a management decision was made during the reporting period
1
$260,000
(i) Dollar value of disallowed costs
1
$260,000
(ii) Dollar value of costs not disallowed
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
Reports for which no management decision was made within six months of issuance
0
0
Fraud Waste Abuse -
You can stop it!
Call the IG HOTLINE
800 736-2983
Or Write to the
Office of Inspector General
NLRB
1099 14th Street, NW
Washington, DC 20570